   December 4, 2003




Environment

Defense Hotline Allegations
Regarding the Environmental
Compliance Assessment Process at
U.S. Army Corps of Engineers,
Portland District
(D-2004-034)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CAP                   Corrective Action Plan
ER                    Engineer Regulation
ERGO                  Environmental Review Guide for Operations
ESSR                  Environmental and Safety Status Report
TEAM                  The Environmental Assessment Manual
          Office of the Inspector General of the Department of Defense
Report No. D-2004-034                                                   December 4, 2003
   (Project No. D-2003CK-0003)

         Defense Hotline Allegations Regarding the Environmental
          Compliance Assessment Process at U.S. Army Corps of
                       Engineers, Portland District

                                 Executive Summary

Who Should Read This Report and Why? U.S. Army Corps of Engineers personnel
responsible for conducting or participating in environmental compliance assessments at
civil works projects should read this report because it discusses possible changes in the
Corps of Engineers environmental compliance assessment process.

Background. This audit is in response to a Defense Hotline referral regarding the
environmental compliance assessment process used by the U.S. Army Corps of
Engineers, (the Corps) Portland District. Specifically, the allegations focused on
environmental compliance issues at the Bonneville Lock and Dam. The Corps Portland
District operates and maintains Bonneville Lock and Dam for hydropower production,
fish and wildlife protection, recreation, and navigation. The purpose of the
environmental compliance program is to assure that Corps projects meet environmental
standards and support and promote pollution prevention, while continually improving
stewardship of natural and cultural resources. Each project is responsible for annually
completing internal environmental compliance assessments to identify, maintain, and
monitor compliance. Corps civil works projects undergo external environmental
compliance assessments every 5 years to provide an outside perspective of the facility’s
environmental compliance status. Bonneville Lock and Dam completed its most recent
external assessment in September 2002.

Results. The Corps needed to improve the process for performing and documenting
environmental compliance assessments. Corps or contractor personnel performed
external environmental compliance assessments for Portland District civil works projects
when required. However, Bonneville Lock and Dam personnel did not document internal
environmental compliance assessments as required by Corps guidance. In addition, the
assessment team responsible for preparing the Cycle 3 external assessment reports for
Bonneville Lock and Dam did not maintain supporting documentation. The Corps
districts do not have a uniform process for conducting internal environmental compliance
assessments. Additionally, we could not determine whether Bonneville Lock and Dam
personnel performed internal assessments or whether external assessments accurately
addressed all findings. The Corps should clarify the requirements for internal
environmental compliance assessments. The Portland District Environmental
Compliance Coordinator should develop an internal assessment process for monitoring
environmental compliance that incorporates all Corps requirements, and ensure that
project personnel properly document environmental compliance assessments. (See the
Finding section of the report for the detailed recommendations.)
The allegation to the DoD Hotline that the Corps Portland District did not
perform environmental compliance assessments when required was
indeterminable. The allegation that the 2002 Bonneville Lock and Dam external
assessment was biased was unsubstantiated. The allegation that the Corps did not
act to correct environmental compliance problems identified in previous
assessments was partially substantiated. The allegation that the Corps Omaha
District personnel withheld the Cycle 3 assessment for Bonneville Lock and Dam
was partially substantiated. (See Appendix B for a complete discussion of the
DoD Hotline allegations.)

Management Comments. The U.S. Army Corps of Engineers concurred with
the recommendations and initiated the revision of Engineer Regulation 200-2-3,
which will clarify the requirements for the internal assessments and Portland
District began development of an internal assessment process which will ensure
proper documentation of environmental compliance assessments. See the Finding
section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the
comments.




                                   ii
Table of Contents

Executive Summary                             i

Background                                   1

Objectives                                   2

Finding
     Environmental Compliance Assessments     3

Appendixes
     A. Scope and Methodology                 7
     B. Summary of Allegations and Results    8
     C. Report Distribution                  11

Management Comments
     U.S. Army Corps of Engineers            13
Background
    We conducted this audit in response to a Defense Hotline referral regarding the
    environmental compliance assessment process at the U.S. Army Corps of
    Engineers (the Corps), Portland District. Specifically, the allegations focused on
    environmental compliance issues at the Bonneville Lock and Dam (Bonneville
    Project). (See Appendix B for a discussion of the allegations made to the DoD
    Hotline.)

    Bonneville Project. The Corps operates and maintains Bonneville Project
    primarily for hydropower production. The project also provides fish and wildlife
    protection, recreation, and navigation. The Corps Portland District oversees
    Bonneville Project, as well as 11 other hydropower projects located in the Pacific
    Northwest.

    Environmental Compliance Assessment Program. Former Secretary of
    Defense, Richard B. Cheney called for the Department of Defense to become the
    lead Federal agency in environmental compliance and protection. Therefore, in
    1989, the Department of Defense initiated the environmental compliance
    assessment program. In 1990, the Corps established an environmental
    compliance program and a network of Environmental Compliance Coordinators.

    The purpose of the environmental compliance program is to assure that Corps
    projects meet environmental standards, and to support and promote pollution
    prevention while continually improving stewardship of natural and cultural
    resources. Each project is required to annually complete an internal
    environmental compliance assessment (internal assessments) to identify,
    maintain, and monitor compliance.

    In addition to annual internal assessments, Corps civil works projects undergo
    external environmental compliance assessments (external assessments) every
    5 years to provide an outside perspective of the facility’s environmental
    compliance status. The Corps uses environmental compliance assessments in
    combination with environmentally sensitive day-to-day operation as a means of
    attaining, sustaining, and monitoring compliance.

    Corps Guidance. Engineer Regulation (ER) 200-2-3, “Environmental
    Compliance Policies,” October 30, 1996, establishes the policy for the
    management of environmental compliance-related activities at Corps projects and
    facilities. Specifically, Chapter 3, “Environmental Compliance Assessments,”
    addresses conducting environmental compliance assessments at Corps projects.
    Contractors or Corps personnel not employed at the project being assessed, and
    who have the necessary organizational and subject matter expertise, conduct the
    external assessments. Project personnel may conduct the internal assessments.

    Personnel conducting the environmental compliance assessments use the current
    versions of The Environmental Assessment Manual (TEAM) and the
    Environmental Review Guide for Operations (ERGO) manual, supplemented with
    applicable state and local laws and regulations. TEAM measures a project against
    various criteria including Federal legislation, state and local regulations, key


                                         1
          compliance requirements, typical physical features to inspect, and the
          environmental compliance checklist. ERGO consists of 13 major environmental
          categories or protocols such as Air Emissions Management; Petroleum, Oil and
          Lubricant Management; and Water Quality Management. Each protocol
          considers engineering manuals, Federal regulations, and good management
          practices.

          Assessment Reports. For external assessments, the assessment team prepares an
          environmental compliance assessment report. The report identifies findings of
          actual or potential areas of environmental noncompliance. The findings are
          categorized as Significant, Major, Minor, or Management Practice; and identify a
          condition, criteria, and suggested corrective actions. Project personnel then
          prepare an accompanying Corrective Action Plan (CAP) to address the findings.
          For internal assessments, the assessors prepare a brief addendum to the last
          external assessment report CAP and incorporate any internal assessment findings.
          The Corps project personnel forward the internal and external assessments, as
          well as the CAPs through their chain of command to the District level for final
          approval.


Objectives
          The audit objectives were to determine whether environmental compliance
          assessments at the Portland District were performed when required; whether
          environmental compliance assessments were performed at Bonneville Lock and
          Dam and Bonneville Hatchery according to established laws and regulations; and
          whether environmental compliance assessment reports for Bonneville Lock and
          Dam and Bonneville Hatchery accurately portrayed assessment results. We also
          reviewed specific allegations made to the DoD Hotline. Since Bonneville
          Hatchery is an outgrant,1 it was excluded from the audit. See Appendix A for a
          discussion of audit scope, scope limitations, and methodology.




1
    An outgrant is Corps-owned land that is leased to another party.




                                                       2
           Environmental Compliance Assessments
           Corps or contractor personnel performed external assessments for Portland
           District civil works projects when required. However, Bonneville Project
           personnel did not document internal environmental compliance
           assessments according to Corps guidance. In addition, the assessment
           teams responsible for preparing the 2002 external environmental
           compliance assessment report for Bonneville Project did not maintain
           supporting documentation. Inadequate documentation of internal
           assessments occurred because Corps guidance was ambiguous. In
           addition, Portland District personnel used a method for monitoring
           environmental compliance that was inconsistent with Corps guidance.
           Further, Corps guidance did not require that documentation be retained to
           support work conducted during the environmental compliance
           assessments. As a result, the Corps districts do not have a uniform process
           for conducting internal assessments. Additionally, we could not determine
           whether Bonneville Project personnel performed internal assessments or
           whether external assessments accurately addressed all findings.


Conducting Environmental Compliance Assessments
    The Corps performed or scheduled external assessments for civil works projects
    within the Portland District. Specifically, Corps or contractor personnel
    performed external assessments for the Bonneville Project in 1992 (Cycle 1),
    1997 (Cycle 2), and 2002 (Cycle 3). However, Bonneville Project personnel were
    unable to provide documentation to show that they conducted internal
    assessments. In addition, the assessment teams responsible for preparing the
    Cycle 3 external assessment report for Bonneville Project did not maintain
    supporting documentation.

    Portland District External Assessments. Corps or contractor personnel
    performed external assessments for civil works projects within Portland District
    when required. We reviewed the Cycle 2 and Cycle 3 external assessments for
    24 Portland District projects. As of March 18, 2003, contractor personnel had
    completed the Cycle 2 assessments for the 24 Portland District projects and Corps
    personnel had completed two of the Cycle 3 assessments. The remaining
    22 projects appropriately scheduled their Cycle 3 assessments for FYs 2003 and
    2004.

    Documenting Internal Assessments. Bonneville Project personnel did not
    document internal assessments as required by Corps guidance. We reviewed
    internal assessments for Bonneville Project for the period 1998 through 2003.
    Bonneville Project personnel were unable to provide a CAP signed by the project
    manager for any year in which an internal assessment was required. Additionally,
    Bonneville personnel documented no new findings from the internal assessments.

    Support for External Assessments. The assessment teams responsible for
    preparing the Cycle 3 external environmental compliance assessment report for


                                        3
    Bonneville Project did not maintain supporting documentation. Corps civil works
    projects are required to undergo an external environmental compliance
    assessment every fifth year. At the conclusion of the assessment, the assessment
    team prepares an environmental compliance assessment report. Project personnel
    then prepare a CAP to address the report findings. The environmental compliance
    assessment report and CAP are the only documentation of the assessment process.


Assessment Guidance
    Inadequate documentation of internal assessments occurred because Corps
    guidance was ambiguous. The ambiguity led personnel from Corps Headquarters
    and at the various districts to interpret internal assessment guidance differently.
    In addition, Portland District personnel used the Environmental and Safety Status
    Report (ESSR), which was inconsistent with Corps guidance, to document
    internal assessments and to monitor the status of external assessments.
    Additionally, Corps guidance did not require Corps personnel to retain
    assessment report supporting documentation.

    Ambiguous Guidance. Project personnel did not properly document internal
    assessments because Corps guidance for internal assessments was ambiguous.
    Corps personnel differed regarding the minimum requirements for performing an
    internal environmental compliance assessment. ER 200-2-3, Section 3-3,
    “Policy” states:
               b(3) At a minimum, internal assessments will review and follow up on
               the status of uncompleted corrective actions contained in the Corrective
               Action Plan (CAP) from the last external and subsequent internal
               assessments. . . . (c) Environmental compliance assessments will be
               conducted using the current versions of The Environmental
               Assessment Manual (TEAM) and the Environmental Review Guide for
               Operations (ERGO) manual. . . . (d) . . . Internal assessment findings
               are incorporated in a brief addendum to the last external assessment
               report and CAP, and signed by the project/facility manager.

            Minimum Requirement. Bonneville Project and Portland District
    personnel stated that “at a minimum” the regulation only required that the internal
    assessment team review and follow-up on the findings and corrective actions
    identified in previous external assessments. As a result, Bonneville Project
    personnel did not prepare a CAP and did not document new findings identified
    during internal assessments.

            Internal Assessments at Other Districts. Other Corps districts
    inconsistently conducted internal assessments because of the ambiguous
    guidance. Corps personnel from the Kansas City and Omaha Districts differed in
    their perception of what they believed was required for internal assessments.
    Kansas City District personnel stated that during an internal assessment project
    personnel were to: 1) follow up on open external findings, 2) identify new
    environmental findings, and 3) identify new regulatory requirements that the
    project must follow. In their opinion, the project personnel were not meeting the


                                             4
intent of the internal assessment process, as stated in ER 200-2-3, if they were not
reviewing all three items. Conversely, Omaha District personnel stated that an
internal assessment is mainly a follow-up of the previous external assessment
findings. Corps Headquarters and Northwest Division environmental personnel
agreed that the internal assessment process is not uniform throughout the Corps.
The Headquarters Corps Environmental Compliance Coordinator should clarify
the internal assessment requirements to ensure a consistent process.

Compliance Monitoring. Portland District personnel, including Bonneville
Project staff, used the ESSR to document internal assessments and to monitor the
status of external assessments. The ESSR is an effective tool for providing a
snapshot of a project’s compliance position in as many as 26 different
environmental and safety categories on any given day. However, the ESSR does
not meet the requirements for internal assessments called for in ER 200-2-3.
Environmental personnel updated the ESSR by overwriting existing data with
current information, which deleted any historical data. As a result, Bonneville
Project personnel could not document performance of annual internal
assessments. The Portland District Environmental Compliance Coordinator
should develop an internal assessment process for monitoring environmental
compliance that incorporates all requirements of ER 200-2-3. Project personnel
should prepare a CAP signed by the project manager to document the
performance of an internal assessment, and incorporate the internal assessment
into the last external assessment as an addendum.

Supporting Documentation. Corps personnel did not retain supporting
documentation for environmental compliance assessment reports because it was
not required by Corps guidance. For an internal assessment, the project personnel
prepare an addendum to the previous external assessment CAP that includes any
new findings identified during the internal assessment. For an external
assessment, the assessment team prepares the assessment report and project
personnel prepare a CAP. However, ER 200-2-3 does not require documenting
the areas reviewed during the assessment or the accuracy and completeness of the
findings presented. The assessment report and the CAP are the only
documentation from the external assessment. As a result, we could not determine
whether Bonneville personnel performed internal assessments and whether
external assessments accurately presented all findings. The Corps of Engineers
Portland District Commander should direct the District Environmental
Compliance Coordinator to ensure that personnel properly document internal and
external assessments.

Prior Review. The Army Corps of Engineers Hazardous, Toxic, and Radioactive
Waste Center of Expertise in Omaha, Nebraska, performed a program review of
the Portland District’s environmental compliance program in September 2002.
The review team also identified that assessment documentation within the
Portland District does not comply with Corps policy. The review team
recommended that the projects prepare addendums to external reports and CAPs,
as well as documenting the resolution of past and new findings or any outstanding
issues.




                                     5
Conclusion
    The Corps districts do not have a uniform process for conducting environmental
    compliance internal assessments. We could not determine whether Bonneville
    personnel performed internal assessments or whether external assessments
    accurately addressed all findings. The Corps needs to continue to clarify and
    improve the environmental compliance assessment process to ensure the
    consistent execution by all districts. In addition, continued progress depends
    upon projects identifying compliance findings, properly documenting assessment
    findings in reports and databases, and obtaining the funds needed to correct these
    findings. If projects do not comply with Corps guidance, assessment reports may
    not accurately reflect the projects’ current compliance status. Corps personnel
    demonstrated a commitment to ensuring the success of the compliance process,
    but it would be advantageous to document problems self-identified and corrected
    to demonstrate the effectiveness of their assessment.


Recommendations and Management Comments
    1. We recommend that the Headquarters, U.S. Army Corps of Engineers,
    Chief, Environmental Compliance Section, Natural Resource Branch clarify
    requirements for internal assessments.

    Management Comments. The U.S. Army Corps of Engineers concurred. The
    Corps initiated the revision of Engineer Regulation 200-2-3, which will clarify the
    requirements for the internal assessments. The revised regulation will be
    complete by September 30, 2004. As an interim measure, a directive will be
    issued to clarify the requirements for internal assessments.

    2. We recommend that the U.S. Army Corps of Engineers, Portland District
    Commander:

               a. Direct the Portland District Environmental Compliance
                  Coordinator to develop an internal assessment process for
                  monitoring environmental compliance that incorporates all
                  requirements in Engineer Regulation 200-2-3.

               b. Direct the Portland District Environmental Compliance
                  Coordinator to ensure the proper documentation of internal
                  and external assessments.

    Management Comments. The Corps concurred. The Commander of the
    Portland District directed the Portland District Environmental Compliance
    Coordinator to develop an internal assessment process that incorporates all
    requirements in Engineer Regulation 200-2-3, and will ensure proper
    documentation of both internal and external environmental compliance
    assessments.




                                         6
Appendix A. Scope and Methodology
    We interviewed key personnel from U.S. Army Corps of Engineers Headquarters;
    Northwest Division; Portland District; Omaha District; the Hazardous, Toxic, and
    Radioactive Waste Center of Expertise; Bonneville Lock and Dam; and the State
    of Oregon Department of Environmental Quality regarding DoD Hotline
    allegations. We reviewed external assessments for Bonneville Project for 1992,
    1997, and 2002 and internal assessments for 1998 through 2003. We also
    reviewed Cycle 2 and Cycle 3 external assessment reports for other Portland
    District projects to determine whether Portland District performed external
    assessments when required. We also reviewed Corps correspondence, Freedom
    of Information Act requests and responses, Notices of Violation, spill reports, and
    media reports for the period 1998 through May 2003.

    We performed this audit from January 2003 through September 2003 in
    accordance with generally accepted government auditing standards. We did not
    review the management control program because we performed the audit in
    response to specific allegations related to one civil works project in one Corps
    district. In addition, during the survey phase of the audit, we determined that the
    Hotline allegations were specific to the Bonneville Project. The Bonneville Fish
    Hatchery is an outgrant program for which the grantee is responsible for
    correcting the identified findings. Therefore, we only reviewed assessment
    reports for the Hatchery to determine whether the Corps performed the
    assessment. Finally, we did not review internal assessments from Corps projects
    other than the Bonneville Project.

    Use of Computer-Processed Data. We did not use computer processed data to
    perform this audit.


Prior Coverage
    No prior coverage directly related to the DoD Hotline allegations has been
    conducted on the subject during the last 5 years.




                                         7
Appendix B. Summary of Allegations and Results
   The results of the allegations to the Defense Hotline are discussed below. The
   allegations were specific to the Bonneville Project.

   Allegation 1. The Corps Portland District did not perform environmental
   compliance assessments during FYs 2000 and 2001.

   Results. Indeterminable. Corps personnel or contractors performed external
   assessments at the Bonneville Project in 1992, 1997, and 2002, as required.
   However, we were unable to determine whether Bonneville Project personnel
   performed internal assessments because personnel did not properly document
   internal assessments. The finding provides additional details on the Corps’
   documentation and performance of internal assessments.

   Allegation 2. The 2002 Bonneville Project external assessment was biased
   because Corps personnel, rather than contractors performed the assessment.
   Further, Corps personnel performed the assessment in 1 week, as opposed to
   2 weeks used by the contractor.

   Results. Unsubstantiated. A contractor performed the 1997 external assessment
   for the Bonneville Project and the Corps Omaha District personnel performed the
   2002 external assessment. The Corps environmental compliance assessment
   guidance specifically allows Corps personnel not assigned to the project under
   assessment to perform external assessments. Additionally, Omaha District
   personnel that performed the assessment stated that they had sufficient time to
   perform the assessment.

   Allegation 3. The Corps did not act to correct environmental compliance
   problems identified in previous assessments. Specifically, the Corps failed to
   take corrective actions to address environmental compliance findings that
   involved the Bradford Island Landfill and oil leaking into the Columbia River
   because of ineffective oil/water separators.

   Results. Partially substantiated. Overall, Bonneville Project personnel worked to
   correct deficiencies identified by the assessment process. However, the Cycle 3
   external assessment report contained problems identified in previous external
   assessments. The external assessment reports identified the Bradford Island
   Landfill as a minor finding in 1992 and as a major finding in 1997. The external
   assessment reports also identified the oil/water separator as a major finding in
   1997 and as a significant finding in 2002. Although the repeat findings appeared
   in assessments that occurred in 5-year increments, the Corps was taking
   corrective action to address the issues.

           Bradford Island. The Bradford Island Landfill was used to dispose of
   household garbage and some project waste materials—oil and grease; paint,
   solvents, scrap metals, mercury vapor lamps, pesticide residues, cables, and sand
   blast grit. The Landfill also contained electrical transmission components, such
   as switchgear, insulators, and light ballasts. In addition to the findings identified
   by the Corps, the State of Oregon, Department of Environmental Quality


                                         8
conducted a study in 1997 that determined Bradford Island was only a medium
priority for clean-up. However, the Corps initiated corrective actions in 1995,
and continues to clean up the site in compliance with oversight provided by the
State of Oregon.

        Oil/Water Separator. The Cycle 3 assessment identified the oil leaking
into the Columbia River as a significant finding. This finding also appeared in
previous assessments. Since 1995, Bonneville Lock and Dam has experienced
problems of oil leaking from the oil/water separator in Powerhouse 1. However,
the Corps has taken actions over the years to address the problem and as of July
2003, was applying for a National Pollutant Discharge Elimination System
permit.

        Overall Performance. Bonneville Project personnel effectively worked
to correct deficiencies identified during the assessment process. Table 1 shows
the number of significant, major, and minor findings identified in the three
external assessments for Bonneville Lock and Dam.

  Table 1. Number of External Assessment Findings for Bonneville Project

                 Assessments                      Significant               Major                Minor           Total
                                                   Findings1               Findings2            Findings3
  Cycle 1 Assessment 1992                             0                       31                   24                  55
  Cycle 2 Assessment 1997                             4                       20                    0                  24
  Cycle 3 Assessment 2002                             5                       18                   23                  46
  Total                                               9                       69                   47                  125
  1
      Significant Finding. A problem categorized as significant requires immediate attention. It poses, or has a high
       likelihood to pose, a direct and immediate threat to human health, safety, the environment, or the facilities’ mission.
  2
      Major Finding. A major deficiency requires action, but not necessarily immediate action. Major deficiencies may pose
       a threat to human health, safety, or the environment. Any immediate threat, however, must be categorized as
       significant.
  3
      Minor Finding. A minor deficiency is usually administrative in nature, even though it may result in a notice of
       violation. This category may also include temporary or occasional instances of noncompliance.




In addition, Table 2 shows that, as of May 15, 2003, personnel at Bonneville
Project either had corrected or were in the process of correcting all but two of the
findings. The three external assessments performed in 1992, 1997, and 2002
identified 125 significant, major, and minor findings. Two of the more serious
findings concerned pollution at Bradford Island Landfill and problems with the
oil/water separator, which Bonneville Project personnel were addressing. As of
May 15, 2003, only two of 125 (1.6 percent) external assessment findings had not
been addressed. As a result, the environmental compliance assessment process at
Bonneville Project was 98.4 percent effective in addressing identified findings
within the Project.




                                                          9
             Table 2. Status of External Assessment Findings as of May 2003

                  Assessments                    Findings          Findings in             Findings Not         Total Findings
                                                 Corrected          Process of              Completed2
                                                                   Completion1
         Cycle 1 Assessment 1992                      53                1                         1                   55
         Cycle 2 Assessment 1997                      21                2                         1                   24
         Cycle 3 Assessment 2002                      43                1                         2                   46
                  Total                              117                4                         4                   125
  1
      The four findings in process of completion consist of repeat findings in the Cycles 1, 2, and 3 external assessments
       pertaining to the oil/water separators and the Bradford Island Landfill.
  2
      The four findings not completed consist of two repeat findings in the Cycles 1, 2, and 3 external assessments related to the
       facility-wide asbestos survey and the Cultural Resources Management Plan.




Allegation 4: Corps Omaha District personnel withheld the Cycle 3 assessment
for Bonneville Project and altered assessment findings.

Audit Results: Partially substantiated. The Corps did not release the Cycle 3
assessment report for Bonneville Project until almost 9 months after the team
completed their fieldwork. Corps Omaha District personnel performed the
Cycle 3 assessment of Bonneville Project in December 2001. However, the
Omaha District personnel did not release the report until September 2002. During
that time the Corps and the state environmental agencies disagreed about state
oversight of Corps dam projects. The Corps and state environmental agencies
disagreed over whether the Corps was required to report all oil spills that occurred
within the dam structure or whether the Corps was required to only report spills
that resulted in discharges into waterways. The press had received several
internal Corps documents and Omaha District wanted to ensure the report did not
affect the Corps legal position on the reporting of oil spills. However, the Corps
conducted the external assessments on a 5-year cycle, as required by policy.

The Cycle 3 final assessment report findings did not substantially differ from the
draft assessment report. The assessment team stated that the final report was
accurate. However, we could not determine whether the report accurately
reflected the assessment results because the Corps guidance does not require that
the assessment team maintain supporting documentation. (See the finding for
more information regarding supporting documentation for environmental
compliance assessment reports.)




                                                         10
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
Commander, Army Corps of Engineers
  Commander, Northwest Division
     Commander, Portland District

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          11
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        12
Comments from U.S. Army Corps of Engineers




                     13
14
15
Team Members
The Contract Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

David K. Steensma
Robert K. West
Deborah L. Culp
Kenneth V. VanHove
John G. LaBelle
Curtis P. Greene
